                            UNITED STATES DEPARTMENT OF EDUCATION

                                               OFFICE OF INSPECTOR GENERAL

                                                                                                        THE INSPECTOR GENERAL
May4, 2012



The Honorable Darrell Issa
Chairman, Committee on Oversight and Government Reform
U.S. House of Representatives
2157 Rayburn House Office Building
Washington, D.C. 20515-6143

Dear Chairman Issa:

Thank you for your AprilS, 2012, letter asking for certain information related to open and
unimplemented recommendations made by the Office of Inspector General to the
U.S. Department of Education. Enclosed with this letter you will find the results of our review.

If you have any questions, or require any additional information, please contact me directly at
(202) 245-6900, or Catherine Grant, our Public Affairs Liaison, at (202) 245-7023.

Sincerely,


("\>\A-'- s;, I}-->­
Kathleen S. Tighe
Inspector General


Enclosure

cc: 	   The Honorable Elijah Cummings, Ranking Member, U.S. House of Representatives,
        Committee on Oversight and Government Reform
        The Honorable Gabriella Gomez, Assistant Secretary, Office of Legislation and
        Congressional Affairs, U.S. Department of Education




                                     400 MARYLAND AVE., S.W. WASHINGTON, D.C. 20202-1510

             Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
       Office of Inspector General Recommendations Not Yet
          Implemented by the U.S. Department of Education
                   April 7, 2011, through April 5, 2012
On AprilS, 2012, the U.S. House ofRepresentatives Committee on Oversight and Government
Reform (Committee) requested that the U.S. Department of Education (Department) Office of
Inspector General (OIG) provide the Committee with information related to recommendations
made in OIG audit and related reports that the Department has not yet implemented. Below you
will find the results of our effort. This information was extracted from the Department's Audit
Accountability and Resolution Tracking System. This system is maintained by the Department's
Office ofthe Chief Financial Officer, with input from OIG and responsible program officials.
OIG periodically evaluates the effectiveness of the Department's audit followup system and
corrective actions taken to address audit recommendations. We are currently conducting an
evaluation of the effectiveness and timeliness of the Department's resolution process for external
audits and anticipate issuing a final report in the summer.

Per our discussion with your staff on April12, 2012, and consistent with our previous reports,
OIG's response includes only those recommendations for which the Department is directly
responsible for implementing corrective action. During the period requested, OIG issued a total
of 19 internal audit reports, which contained 171 recommendations for which the Department
was directly responsible for implementing corrective actions. During the same period, OIG also
issued 15 external audit reports, which contained 130 recommendations.

    1. 	 Identify the current number ofopen and unimplemented recommendations.

       A total of 34 recommendations made in OIG audit and related reports remain open and
       unimplemented. The Office of Management and Budget (OMB) Circular A-50, Audit
       Followup, dated September 19, 1982, paragraph 8a, states, "Agencies shall assign a high
       priority to the resolution of audit recommendations and to corrective actions."
       Subparagraph 8a(2) requires that resolution shall be made within a maximum of 6 months
       after issuance of the final report, thus the more recent recommendations are not
       considered overdue for resolution. Resolution is defined as the point at which the audit
       organization and agency management officials agree on action to be taken on reported
       fmdings and recommendations. As of AprilS, 2012,29 ofthe 34 open and
       unimplemented recommendations were not yet overdue for resolution.

    2. 	 For those recommendations that have an estimated cost savings associated with them,
         identify the recommendation, the date first recommended, and the total estimated cost
         savings your office believes is obtainable if the recommendation is implemented by
         agency management.

       OIG generally does not estimate monetary benefits in its internal audits of the
       Department's management of its programs and operations, other than to identify better


                                                 1

        uses of funds. The work conducted during the time period requested did not include any
        recommendations regarding better use of funds.

    3. 	 Identify what your office considers the three most important open and unimplemented
         recommendations.

        We believe that all of our recommendations are important, so it is very challenging to
        select three as being the most important. To fulfill this request, however, we have
        selected the following recommendations based on their impact on overall Department
        programs and operations. For each, we provide: (1) the status ofthe recommendation; (2)
        the cost savings associated with the recommendation; and (3) whether there are plans to
        implement the recommendation in the future. Although one of our recommendations
        involves a program funded through the American Recovery and Reinvestment Act of
        2009, we include it herein as the recommendation is applicable to all Department
        competitive grant programs and awards.

            Financial Statement Audits- Fiscal Years 2011 and 2010 ~U.S. Department of
            Education
            Date Report Issued: November 15, 2011
            Finding: In our annual audit of the Department's financial statement, our
            independent financial auditors found significant deficiencies that warrant continued
                                                                                  1
            focus on credit reform estimation and financial reporting processes.
            Recommendation: Continue to improve the analytical tools used for the loan
            estimation process, working to develop formats and content that synthesize and
            capture loan level data available in the Department's systems. Assess prepayment,
            death, disability, and bankruptcy rates by cohort in light of recent changes in the
            economic environment to determine the extent to which there may be differences in
            performance across cohorts; and for a subset of borrowers, obtain credit rating data
            and track the borrower's ability to pay over time. Use the results for further analysis.
            Status ofRecommendation: Resolved
            Cost Savings: N/A
            Plans to Implement Recommendation in the Future: Yes

             Financial Statement Audits- Fiscal Years 2011 and 2010- U.S. Department of
             Education
             Date Report Issued: November 15,2011
             Finding: In our annual audit of the Department's financial statement, our
             independent financial auditors found significant deficiencies that warrant continued
                                                                                          2
             focus on controls surrounding information technology security and systems.
             Recommendation: Address across the Department the root causes ·of security and
             control weaknesses disclosed in audits and internal self-assessments by providing

1
  A similar finding was identified in Financial Statement Audits- Fiscal Years 2010 and 2009- U.S. Department of 

Education. 

2
  A similar finding was identified in Financial Statement Audits- Fiscal Years 2010 and 2009- U.S. Department of 

Education. 

                                                       2

       additional training for information technology professionals, allocating appropriate
       resources to IT process areas, maintaining updated procedures to ensure proper
       configuration of servers, monitoring contractor performance of system support
       services, and ensuring contracts with service suppliers adequately address security
       and government standards and approaches to achieving and monitoring compliance.
       Status ofRecommendation: Resolved
       Cost Savings: NIA
       Plans to Implement Recommendation in the Future: Yes

       The Department's Implementation of the State Fiscal Stabilization Fund
       Program
       Date Report Issued: September 24,2010
       Finding: The Department should strengthen its efforts to ensure that key application
       data are reasonably supported prior to grant award. We determined that while the
       Department's process verified that all required data and related information were
       provided, it did not assess whether the data were reasonably supported.
       Recommendation: The Department should require supporting documentation for key
       data fields in grant applications and provide an explanation of what constitutes
       adequate documentation, in order to ensure accountability and assist program staff
       with application reviews.
       Status ofRecommendation: Unresolved
       Cost Savings: NlA
       Plans to Implement Recommendation in the Future: Yes

4. 	 Identify the number ofrecommendations your office deems accepted and implemented by
     the agency during the time period March 24, 2010, to the present.

   For the time period requested, a total of 145 recommendations were accepted and 

  ·implemented by the Department. 





                                            3

